Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




    PART D BENEFICIARIES
     WITH QUESTIONABLE
    UTILIZATION PATTERNS
       FOR HIV DRUGS




                            Daniel R. Levinson
                             Inspector General

                              August 2014
                             OEI-02-11-00170
EXECUTIVE SUMMARY: Part D Beneficiaries With Questionable Utilization Patterns
for HIV Drugs, OEI-02-11-00170

WHY WE DID THIS STUDY
Under Medicare Part D, the Centers for Medicare & Medicaid Services (CMS) contracts with private
insurance companies, known as sponsors, to provide prescription drug coverage. The Office of
Inspector General (OIG) has found that Part D is vulnerable to fraud, waste, and abuse. Prior work
has focused on questionable practices by pharmacies and prescribers; this report addresses
beneficiaries with questionable utilization patterns.

CMS has placed few restrictions on specific beneficiaries, and these restrictions have focused on
opioids. For example, CMS’s Overutilization Monitoring System provides each sponsor with a list
of beneficiaries who are potentially overutilizing opioids. However, opioids are not the only Part D
drugs vulnerable to fraud, waste, and abuse. Other types of drugs, including those that treat human
immunodeficiency virus (HIV), are also vulnerable because they can be very expensive and can
have psychoactive effects.

HOW WE DID THIS STUDY
We based this study on an analysis of Prescription Drug Event records for HIV drugs in 2012.
Part D sponsors submit one record to CMS for each drug that is dispensed to a beneficiary enrolled
in their plans. Each record contains information about the drug, beneficiary, pharmacy, and
prescriber. We developed six measures to identify beneficiaries with questionable utilization
patterns on the basis of results of past OIG analyses and fraud investigations and input from CMS
staff.

WHAT WE FOUND
Medicare Part D paid $2.8 billion for HIV drugs in 2012. Almost 1,600 Part D beneficiaries had
questionable utilization patterns for HIV drugs. These beneficiaries had no indication of HIV in
their Medicare histories, received an excessive dose or supply of HIV drugs, received HIV drugs
from a high number of pharmacies or prescribers, or received contraindicated HIV drugs (i.e., HIV
drugs that should not be used in combination with one another). In total, Medicare paid $32 million
for HIV drugs for these beneficiaries. While some of this utilization may be legitimate, all of these
patterns warrant further scrutiny. These patterns may indicate that a beneficiary is receiving
inappropriate drugs and diverting them for sale on the black market. They may also indicate that a
pharmacy is billing for drugs that a beneficiary never received or that a beneficiary’s identification
number was stolen.

WHAT WE RECOMMEND
We recommend that CMS (1) expand sponsors’ drug utilization review programs, (2) expand the
Overutilization Monitoring System to include additional drugs susceptible to fraud, waste, and
abuse, (3) expand sponsors’ use of beneficiary-specific controls, (4) restrict certain beneficiaries to a
limited number of pharmacies or prescribers, (5) limit the ability of certain beneficiaries to switch
plans, (6) increase monitoring of beneficiaries’ utilization patterns, and (7) follow up on questionable
utilization patterns. CMS concurred with all but the second and fifth recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................7 

Findings......................................................................................................13 

           Medicare Part D Paid $2.8 Billion for HIV drugs in 2012... .........13 

           Almost 1,600 Part D Beneficiaries Had Questionable Utilization 

           Patterns for HIV Drugs ..................................................................14 

Conclusion and Recommendations ............................................................21 

           Agency Comments and Office of Inspector General Response.....24 

Appendix....................................................................................................26 

           A: HIV Drugs ................................................................................26 

           B: Most Common HIV Drugs and Combinations.........................28 

           C: Agency Comments ...................................................................30 

Acknowledgments......................................................................................34 

OBJECTIVES
1.	 To determine the extent to which beneficiaries received human
    immunodeficiency virus (HIV) drugs paid for by Medicare Part D in 2012.
2.	 To determine the extent to which beneficiaries had questionable utilization
    patterns for HIV drugs in 2012.

BACKGROUND
Medicare Part D provides an optional prescription drug benefit to Medicare
beneficiaries.1 The Centers for Medicare & Medicaid Services (CMS)
contracts with private insurance companies, known as Part D sponsors, to
provide drug coverage to beneficiaries who choose to enroll in the program.2
In 2012, 37 million beneficiaries were enrolled in Part D.3
In the 9 years since Part D began, the Office of Inspector General (OIG) and
others have raised concerns about Part D billing. OIG has found that the
program has limited safeguards and is vulnerable to fraud, waste, and abuse.
Recent OIG reports have focused on questionable practices by pharmacies and
prescribers. This report addresses beneficiaries with questionable utilization
patterns.
CMS has placed few restrictions on specific beneficiaries in Part D. These
restrictions have focused on opioids, as this type of drug is especially
vulnerable to fraud, waste, and abuse. However, opioids are not the only
Part D drugs that are vulnerable. Other types of drugs are also susceptible to
fraud, waste, and abuse, particularly if they are very expensive or have
psychoactive effects. For example, antipsychotic drugs and certain respiratory
and cardiac drugs are susceptible.
In addition, antiretroviral drugs that treat HIV4 are a target for fraud, waste,
and abuse because they can be very expensive and can have psychoactive
effects. For example, one common HIV drug costs about $1,700 for a
month’s supply. Also, when certain HIV drugs and commonly abused
painkillers are taken together, the HIV drugs can enhance the effects of the




1
  42 U.S.C. § 1395w-101(a).
 
2
  42 U.S.C. § 1395w-112(b)(1).
 
3
  The Boards of Trustees, Federal Hospital Insurance and Federal Supplementary Medical

Insurance Trust Funds, 2013 Annual Report of the Boards of Trustees of the Federal Hospital
Insurance and Federal Supplementary Medical Insurance Trust Funds, pp. 151 and 157.
Accessed at http://downloads.cms.gov/files/TR2013.pdf on November 26, 2013.
4
  For the purposes of this report, we refer to antiretroviral drugs that treat HIV as “HIV
drugs.”


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   1
painkillers.5 Further, one study reported that another HIV drug is used by
HIV-negative individuals for its intoxicating effects.6
A number of recent fraud cases have involved HIV drugs. In one case,
Medicare paid over $8.5 million for medications for HIV/AIDS patients that
either were medically unnecessary or were never provided.7 In another case, a
pharmacy owner was charged with fraudulently billing Medicaid for HIV
drugs that he never filled or only partially filled.8 He is accused of paying
cash and other kickbacks to beneficiaries in exchange for their HIV drugs.
In a third case, 48 people were charged with defrauding Medicaid of
$108 million.9 They are accused of trafficking hundreds of millions of
dollars’ worth of prescription drugs, including HIV drugs. In this scheme,
Medicaid beneficiaries allegedly filled their prescriptions for HIV drugs using
their Medicaid benefits and then sold the medication for cash. The medication
was repackaged and resold to pharmacies that then dispensed the drugs to
unsuspecting customers. In a similar case, four people were charged with a
scheme to distribute HIV drugs on the black market and defraud Medicaid of
$155 million.10
This study focuses on beneficiaries who have questionable utilization patterns
for HIV drugs. Although the report addresses HIV drugs, the issues that it
raises are relevant to other Part D drugs susceptible to fraud, waste, and abuse.
This report is part of a larger body of work examining Part D. Two other


5
  T.H. Nieminen et al., “Oxycodone Concentrations Are Greatly Increased by the
Concomitant Use of Ritonavir or Lopinavir/Ritonavir.” European Journal of Clinical
Pharmacology, August 10, 2010. For a list of HIV drugs’ brand names, see Appendix A.
6
  James A. Inciardi et al., “Mechanisms of Prescription Drug Diversion Among
Drug-Involved Club- and Street-Based Populations,” Pain Medicine, March 2007; 8(2):
171–183. Accessed at http://www.ncbi.nlm.nih.gov/pmc/articles/PMC2879025/ on
February 21, 2014.
7
  Federal Bureau of Investigation, Manhattan Doctor Pleads Guilty to $8.5 Million Medicare
Fraud Scheme, February 25, 2013. Accessed at http://www.fbi.gov/newyork/press-
releases/2013/manhattan-doctor-pleads-guilty-to-8.5-million-medicare-fraud-scheme on
September 5, 2013.
8
  Kings County District Attorney’s Office, Kings County District Attorney Charles J. Hynes,
NYC Human Resources Administration Commissioner Robert Doar and U.S. Department of
Health and Human Services, Special Agent In Charge, Thomas O’Donnell Announce the
Indictment of the Owner of a Williamsburg Pharmacy for Illegally Receiving Nearly
$800,000 in Medicaid Payments, August 29, 2013. Accessed on September 5, 2013 (link no
longer works).
9
  United States of America -v- Juan Carlos Viera et al., S1 11 Cr. 1072 (DLC), July 17, 2012.
Accessed at http://www.justice.gov/usao/nys/pressreleases/July12/drugs/vierajoseetals1
indictment.pdf on October 22, 2013.
10
   Attorney General Eric Schneiderman, A.G. Schneiderman Announces Arrests In
$274 Million Black Market Prescription Drug Operation, April 4, 2012. Accessed at
http://www.ag.ny.gov/press-release/ag-schneiderman-announces-arrests-274-million-black-
market-prescription-drug-operation on November 14, 2013.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   2
reports identified pharmacies and prescribers with questionable billing
patterns.11 A third report identified inappropriate Part D payments for
Schedule II drugs billed for as refills.12 A fourth report identified Part D drugs
ordered by individuals who do not have the authority to prescribe.13 All of
these reports are part of the Health Care Fraud Prevention and Enforcement
Action Team (HEAT) Initiative, which focuses on detecting health care fraud
through innovative data analysis and enhanced cooperation between the
Department of Justice, OIG, and CMS.
Medicare Part D
Medicare beneficiaries have the option of enrolling in stand-alone prescription
drug plans, or they may receive prescription drug coverage as a part of
managed care plans. The managed care plans (known as Medicare Advantage
plans, or Medicare Part C) also include medical benefits. They are offered as
an alternative to traditional Medicare (known as Medicare Parts A and B).14
Most beneficiaries are responsible for certain costs under Part D, which may
include a monthly premium, an annual deductible, and coinsurance. However,
certain low-income beneficiaries are eligible to receive assistance to pay some
or all of these Part D costs. The portion that is paid by Medicare is referred to
as the low-income subsidy.15
Medicare beneficiaries are generally not allowed to switch prescription drug
plans during the year. However, those who qualify for the low-income
subsidy are allowed to change plans every month. Other beneficiaries may
also switch under special circumstances. For example, they may switch if
they move out of their plan’s service area. They may also switch if they have
a severe or disabling condition, such as HIV, and if there is a Medicare
Chronic Care Special Needs Plan that serves that condition.16


11
   Office of Inspector General (OIG), Retail Pharmacies With Questionable Part D Billing,
OEI-02-09-00600, May 2012, and OIG, Prescribers With Questionable Patterns in Medicare
Part D, OEI-02-09-00603, June 2013.
12
   Schedule II drugs are controlled substances with the highest potential for abuse of any
prescription drugs legally available in the United States. OIG, Inappropriate Medicare Part
D Payments for Schedule II Drugs Billed As Refills, OEI-02-09-00605, September 2012.
13
   OIG, Medicare Inappropriately Paid for Drugs Ordered by Individuals Without
Prescribing Authority, OEI-02-09-00608, June 2013. 

14
   Medicare Part A covers services such as inpatient hospitalizations and skilled nursing care, 

while Medicare Part B covers physician and outpatient services. 

15
   42 CFR § 423.315(d). 

16
   For more information about the circumstances under which a beneficiary may switch plans, 

see CMS, Special Circumstances (Special Enrollment Periods). Accessed at 

http://www.medicare.gov/sign-up-change-plans/when-can-i-join-a-health-or-drug-
plan/special-circumstances/join-plan-special-circumstances.html#collapse-3206 on

December 23, 2013. 



Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   3
Medicare Part D covers drugs prescribed for medically accepted indications.17
For each plan, sponsors develop a list of covered drugs, known as a formulary.
A formulary often gives preference to certain drugs over other drugs that treat
the same condition. Each formulary must include at least two drugs within
each category or class. Sponsors can also use utilization management tools,
such as requiring prior authorization or establishing quantity limits, to place
restrictions on the use of certain drugs on their formularies.
Under Part D, HIV drugs are considered a protected class, which helps to
ensure that beneficiaries have access to them.18 As such, CMS requires that
each formulary include “all or substantially all” HIV drugs. Further, unlike
they may for most drugs, sponsors may not use certain utilization management
tools, such as prior authorization, for HIV drugs.
Monitoring of Medicare Part D
CMS contracts with the National Benefit Integrity Medicare Drug Integrity
Contractor (MEDIC) to detect and prevent fraud, waste, and abuse. Its
responsibilities include identifying and investigating potential fraud and
abuse, referring cases, and fulfilling requests for information from law
enforcement. The MEDIC is required to identify potential fraud and abuse
through external sources, such as tips, as well as proactive methods, such as
data analysis. 19
CMS also relies on sponsors to help safeguard the Part D program. CMS
requires sponsors to have compliance plans that contain measures to detect,
prevent, and correct fraud, waste, and abuse.20 CMS recommends that
sponsors use data analysis and specifically calculate the total number of
prescriptions each beneficiary received—both overall and within certain
classes of drugs—to identify possible fraud, waste, or abuse.
CMS also requires sponsors to have a drug utilization review program to assist
in preventing overutilization of prescribed medications and to reduce fraud,
waste, and abuse.21 These programs should include concurrent reviews, which


17
   42 U.S.C. § 1395w-102(e)(1).

18
   The six protected classes are immunosuppressants, antidepressants, antipsychotics, 

anticonvulsants, antiretrovirals, and antineoplastics. See 42 CFR § 423.120(b)(2)(i); CMS, 

Prescription Drug Benefit Manual, ch. 6 § 30.2.5. 

19
   See OIG, MEDIC Benefit Integrity Activities in Medicare Parts C and D, 

OEI-03-11-00310, January 2013. 

20
   42 CFR § 423.504(b)(4)(vi). 

21
   CMS, Announcement of Calendar Year (CY) 2013 Medicare Advantage Capitation Rates 

and Medicare Advantage and Part D Payment Policies and Final Call Letter, April 2, 2012.
Accessed at http://www.cms.gov/Medicare/Health-Plans/HealthPlansGenInfo/Downloads/
2013-Call-Letter.pdf on October 4, 2012. See also CMS, Supplemental Guidance Related to
Improving Drug Utilization Review Controls in Part D, August 31, 2012.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   4
are claim-level edits at the point of sale. These edits commonly include three
types.22 They include “refills too soon,” which can prevent the refilling of a
drug before a certain date. They include “maximum therapeutic dose
exceeded,” which can prevent prescriptions with unsafe doses from being
dispensed. Lastly, these edits include “therapeutic duplication,” which can
prevent beneficiaries from receiving multiple concurrent drugs in the same
class. Sponsors’ drug utilization review programs should also include
retrospective reviews, which occur after the drug is dispensed.
CMS has stated that sponsors need to employ more effective drug utilization
review programs and outlined three levels of improvements that it expected
sponsors to apply in 2013.23 Specifically, CMS stated that sponsors should
(1) improve their concurrent claims edits for all drugs (e.g., limit dosage at the
point of sale to the maximum allowable dose on the Food and Drug
Administration (FDA)-approved label); (2) improve their formulary utilization
design (e.g., implement quantity limits based on the FDA-approved label);
and (3) for opioids, improve retrospective reviews and case management.
CMS recommended that sponsors take several steps to improve their
retrospective review and case management for opioids.24 First, sponsors
should use data analysis to identify patterns of apparent duplicative drug use.
Next, when warranted, clinical staff should communicate with prescribers and
beneficiaries to ascertain medical necessity. When the prescriber agrees that
the beneficiary may be overutilizing the drugs or when the prescriber does not
respond to the sponsor’s inquiries, sponsors may place point-of-sale edits on
beneficiaries. These edits are specific to the beneficiary and can vary on the
basis of the situation. For example, they may prevent a beneficiary from
receiving any drug in a certain class or an excessive dose of a particular drug
ingredient.
In July 2013, CMS implemented the Overutilization Monitoring System to
ensure that sponsors have reasonable and appropriate drug utilization




22
   CMS, Improving Drug Utilization Review Controls in Part D, September 28, 2011.
23
   CMS, Announcement of Calendar Year (CY) 2013 Medicare Advantage Capitation Rates
and Medicare Advantage and Part D Payment Policies and Final Call Letter, April 2, 2012.
Accessed at http://www.cms.gov/Medicare/Prescription-Drug-Coverage/
PrescriptionDrugCovContra/Downloads/RateNoticeA.pdf on October 15, 2013.
24
   CMS, Medicare Advantage and Prescription Drug Plan Fall Conference: Medicare
Part D Overutilization Monitoring System Update and Lessons Learned, September 4, 2013.
Accessed at http://www.cms.gov/Outreach-and-Education/Training/CTEO/
Event_Archives.html#CMS%20Medicare%20Advantage%20Prescription%20Drug%20Plan
%20Fall%20Conference%20%28Webcast%29 on November 14, 2013. (Also online at
http://www.ustream.tv/recorded/38234985.)


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   5
management programs.25 On a quarterly basis, CMS provides each sponsor
with a list of beneficiaries with potential issues regarding overutilization of
opioids or acetaminophen.26 Sponsors are required to review these
beneficiaries and report the status of these reviews to CMS.
Guidelines for the Use of HIV Drugs
The Department of Health and Human Services (HHS) has published
guidelines for practitioners on the use of HIV drugs.27 The March 2012
guidelines recommended, among other things, that all patients taking HIV
drugs receive certain laboratory tests regularly. These tests include a CD4
count and a measure of the patient’s viral load. The CD4 count measures
immune function and can help to determine how well the patient is
progressing with the treatment and whether the treatment needs to be changed.
The measure of viral load indicates how well the patient is responding to the
drugs. The guidelines recommend that these two tests be performed at the
beginning of care when a patient is first diagnosed and every 3 to 6 months
thereafter.28 A third laboratory test, which tests for drug resistance, is
recommended when care begins and if treatment does not seem to be
working.29
Related Work
A recent OIG report found that 2,637 retail pharmacies had questionable
billing in 2009.30 These pharmacies had extremely high billing for at least one
of eight measures we developed. For example, many pharmacies billed
extremely high dollar amounts or numbers of prescriptions per beneficiary or
per prescriber, which could mean that a pharmacy is billing for drugs that are
not medically necessary or were never provided to the beneficiary. Among
other things, the report recommended that CMS strengthen its monitoring of


25
   CMS, Medicare Part D Overutilization Monitoring System, July 5, 2013. Accessed at
http://www.cms.gov/Medicare/Prescription-Drug-Coverage/PrescriptionDrugCovContra/
Downloads/HPMS-memo-Medicare-Part-D-Overutilization-Monitoring-System-07-05-13-
.pdf on December 23, 2013.
26
   The list can also include other beneficiaries identified by CMS. See CMS, Medicare
Part D Overutilization Monitoring System—Updates, October 25, 2013. 

27
   HHS Panel on Antiretroviral Guidelines for Adults and Adolescents, Guidelines for the Use 

of Antiretroviral Agents in HIV-1-infected Adults and Adolescents, pp. C1–C10. March 27, 

2012. Accessed at http://aidsinfo.nih.gov/contentfiles/AdultandAdolescentGL003093.pdf on

August 26, 2013. 

28
   A CD4 count is also known as a CD4+ T-cell count, and a viral load test is also known as an 

HIV RNA plasma test. According to the guidelines, in certain clinically stable patients, the 

CD4 count can be monitored every 6 to 12 months, rather than every 3 to 6 months.

29
   Drug resistance occurs when the drug is no longer effective in stopping the virus from

replicating. 

30
   OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600, May 2012. 



Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   6
pharmacies, provide additional guidance to sponsors on monitoring pharmacy
billing, and further strengthen its compliance plan audits.
Another recent report found that 736 general-care physicians had questionable
prescribing patterns.31 Each of these physicians prescribed extremely high
amounts for at least one of five measures we developed. For example, many
of these physicians prescribed extremely high numbers of prescriptions per
beneficiary or high percentages of Schedule II drugs, which may indicate that
these prescriptions are medically unnecessary. The report recommended that
CMS instruct the MEDIC to expand its analysis of prescribers and provide
sponsors with additional guidance on monitoring prescribing patterns.
Another recent OIG report found that Part D inappropriately paid $25 million
for Schedule II drugs billed as refills in 2009.32 Sponsors should not have paid
for any of these drugs because Federal law prohibits refills on prescriptions
for Schedule II drugs; such drugs require a new prescription.33 Among other
things, the report recommended that CMS issue guidance to sponsors to
prevent billing of Schedule II refills and to exclude Schedule II refills when
calculating payments to sponsors.
A fourth report found that Part D inappropriately paid for drugs ordered by
individuals who clearly did not have the authority to prescribe, such as
massage therapists, athletic trainers, home contractors, interpreters, and
transportation companies.34 This raises concerns about the appropriateness of
Part D payments and about patient safety. The report recommended that CMS
require sponsors to verify that prescribers have the authority to prescribe
drugs and ensure that Medicare does not pay for prescriptions from
individuals without prescribing authority.

METHODOLOGY
We based this study on an analysis of prescription drug event (PDE) records
for HIV drugs in 2012. Part D sponsors submit a PDE record to CMS for
each time that a drug is dispensed to a beneficiary enrolled in their plans.
Each record contains information about the drug and beneficiary, as well as
the identification numbers for the pharmacy and the prescriber. We matched
these records to beneficiaries’ Part A and B claims from CMS’s National

31
   OIG, Prescribers With Questionable Patterns in Medicare Part D, OEI-02-09-00603,
June 2013. 

32
   OIG, Inappropriate Part D Payments for Schedule II Drugs Billed as Refills, 

OEI-02-09-00605, September 2012. 

33
   Federal law permits partial refills under certain circumstances. It is possible some of these
drugs may have been inaccurately billed as refills when they were partial fills.
34
   OIG, Medicare Inappropriately Paid for Drugs Ordered by Individuals Without
Prescribing Authority, OEI-02-09-00608, June 2013.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   7
Claims History File to determine whether beneficiaries had an indication of
HIV in their medical histories. For each HIV drug, we also reviewed the
FDA-approved label to identify the drug’s indications, recommended dose,
and contraindications.
Analysis of HIV Drugs
We first identified all PDE records for HIV drugs with dates of service from
January 1 to December 31, 2012. To do this, we matched FDA’s list of HIV
drugs to First Databank and Red Book to identify the National Drug Codes
(NDCs) for HIV drugs.35 In total, we identified 654 NDCs. For a list of HIV
drugs and their generic names, see Appendix A.
We identified 3,177,937 PDE records with these NDCs. Using the Health
Insurance Claims Number (HICN), we matched the PDE records to the
National Claims History File and obtained Part A and B claims for each
beneficiary for 2011 and 2012. Using the HICN, we also matched the PDE
records to the Beneficiary Enrollment Database (EDB). For the purposes of
this review, we excluded 174,504 PDE records for beneficiaries who appeared
to be taking HIV drugs as pre- or post-exposure prophylaxis or for
hepatitis B.36
We analyzed these data to determine the total amount Medicare paid for HIV
drugs, the most common drugs, and the most common combinations of HIV
drugs.37 We also analyzed the demographics of the beneficiaries receiving
HIV drugs. Specially, we looked at their age, sex, and Medicare status.
Analysis of Questionable Utilization Patterns
We developed six measures to identify beneficiaries with questionable
utilization patterns that warrant further scrutiny for fraud, waste, or abuse.38
We developed these measures on the basis of the results of past OIG analyses
and fraud investigations related to HIV drugs, as well as input from CMS
staff. These measures focused on beneficiaries’ Medicare histories, doses of
HIV drugs, supplies of HIV drugs, the number of pharmacies per beneficiary,


35
   FDA, Antiretroviral Drugs Used in the Treatment of HIV Infection, August 2013. Accessed
at http://www.fda.gov/ForConsumers/byAudience/
ForPatientAdvocates/HIVandAIDSActivities/ucm118915.htm on November 12, 2013.
36
   We excluded a total of 10,566 beneficiaries. For beneficiaries with Parts A and B claims,
we assumed that those who received Truvada only and had an HIV test in 2011 and 2012
were taking the drug for pre-exposure prophylaxis. Next, we assumed that beneficiaries with
a diagnosis of V0179 (“contact with or exposure to other viral diseases”) were taking HIV
drugs as post-exposure prophylaxis. Lastly, we assumed that beneficiaries who received
Viread only and had a diagnosis of hepatitis B were taking the drug for hepatitis B.
37
   To calculate the total amount that Part D paid, we summed three fields on the PDE records
that represent the total gross drug costs: ingredient cost, dispensing fee, and sales tax.
38
   These measures are not intended to be clinical standards for treatment.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   8
the number of prescribers per beneficiary, and contraindicated drugs. We
developed these measures to address a variety of concerns so each measure is
independent of the others. As a result, we considered beneficiaries to have
questionable utilization patterns if they had extreme results on one or more
measures.
Below is a description of each measure and how we identified beneficiaries
with questionable utilization patterns.
Medicare history had no indication of HIV. The beneficiary’s Medicare
claims history (1) did not show a diagnosis of HIV, (2) did not include any of
three laboratory tests that are used to monitor the use of HIV drugs, and
(3) did not show that the beneficiary received any medical services from any
of his or her HIV drug prescribers.
For this measure, we identified beneficiaries who received HIV drugs and
were enrolled in Medicare Parts A and B for all of 2012.39 We reviewed the
Part A and B claims from January 1, 2011, to December 31, 2012 for each of
these beneficiaries. We first determined whether any of the beneficiary’s
Part A or B claims from this 2-year period had any of the following HIV
diagnosis codes:
     	 042 (human immunodeficiency virus (HIV-140) disease);
     	 V08 (asymptomatic human immunodeficiency virus), which indicates
        that the patient tested positive for HIV, but has no symptoms;
     	 079.53 or 07953 (HIV-2); and
     	 795.71 or 79571 (“nonspecific serologic evidence of human
        immunodeficiency virus,” which indicates an inconclusive HIV test).
We then determined whether there were claims for the beneficiary for any of
the three laboratory tests that monitor the use of HIV drugs. Specifically, we
reviewed the Healthcare Common Procedure Coding System (HCPCS) codes
in the claims to determine whether each beneficiary received at least 1 CD4
count, viral load test, or drug resistance test during the 2-year period.
Next, we analyzed the claims data to determine whether beneficiaries received
a medical service during the 2-year period from any of the prescribers of their
HIV drugs. Using the prescriber’s National Provider Identifier (NPI), we
searched the beneficiary’s Part A and B claims to determine whether the




39
   For this measure, we analyzed claims for 90,351 beneficiaries who were enrolled in

Medicare Parts A and B for all of 2012. 

40
   HIV-1 is the most common strain of the virus. HIV-2 is not widely seen outside Africa.



Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   9
beneficiary received any medical services, such as office visit or surgery, from
the prescriber.41
Excessive doses of an HIV drug. The beneficiary received greater than two
times the daily recommended dose of an active ingredient.
For this measure, we first reviewed the FDA-approved labels for each HIV
drug and identified the recommended dose for each active ingredient of the
drug.42 Using the PDE records, we calculated the average daily dose that each
beneficiary received for each HIV drug ingredient. We did this by summing
the total amount dispensed and dividing it by the number of unique days the
beneficiary had a prescription for that drug. If the beneficiary’s average daily
dose over the entire year was more than two times the recommended dose on
the FDA-approved label, we considered it to be questionable.
Excessive supply of an HIV drug. The beneficiary received more than a
16-month (480-day) supply of an HIV drug.
For each drug and strength, we calculated the total number of days supplied
using the PDE records.43 If the total was more than 480 days, we considered it
to be questionable.
High number of pharmacies. The beneficiary received HIV drugs from six or
more pharmacies.
For this measure, we used the pharmacies’ NPIs to calculate the total number
of pharmacies for each beneficiary.44 We used a standard technique, known as
the Tukey method, to identify the beneficiaries who were outliers (i.e., those
who were above the 75th percentile plus three times the interquartile range).
Using this method, we determined that beneficiaries who received HIV drugs
from six or more pharmacies were extremely different from their peers, and
we considered this to be questionable.45



41
   To do this analysis, we also checked whether the prescriber was listed on the claims as the
rendering provider, attending provider, operating provider, or other provider. For records that
did not contain an NPI for the prescriber, we used a “crosswalk” developed by OIG analysts
to identify the prescriber’s NPI. We excluded from this analysis any PDE records for which
we were unable to identify the prescriber’s NPI.
42
   In cases in which the recommended dose varied on the basis of the beneficiaries’ weight,
age, or health status, we identified the dose that was for an average adult, without special
circumstances or comorbidities. When doses varied on the basis of past HIV drug use, we
used the higher of the two doses.
43
   For this analysis, we combined brand-name drugs with their generic equivalents.
44
   Most PDE records included an NPI for the pharmacy. In cases in which we were unable to
identify the NPI, we used the provider identifier on the PDE record for this analysis.
45
   See J.W. Tukey, Exploratory Data Analysis. Addison-Wesley, 1977. The interquartile
range is calculated by subtracting the value at the 25th percentile from the value at the
75th percentile.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   10
High number of prescribers. The beneficiary received HIV drugs from six or
more prescribers.
For this measure, we used the prescribers’ NPIs to calculate the total number
of prescribers for each beneficiary.46 As we did with the pharmacies, we used
the Tukey method to identify the beneficiaries who were outliers. We
determined that beneficiaries with six or more prescribers were extremely
different from their peers. For each beneficiary with six or more prescribers,
we then reviewed the prescribers’ addresses and phone numbers to determine
whether they appeared to be from the same group practice or institution.47 If a
beneficiary had six or more prescribers who did not appear to be from the
same group practice or institution, we considered it to be questionable. For
example, if a beneficiary had a total of seven prescribers, but four of the seven
were in the same practice, we did not consider it questionable.
Contraindicated combination of HIV drugs. The beneficiary received a
contraindicated combination of HIV drugs for more than 60 days during the
year.
The labels for two HIV drugs state that the drug is contraindicated with
another HIV drug. Specifically, the label for Lexiva states that it is
contraindicated with delavirdine.48 The label for Reyataz states that it is
contraindicated with indinavir. To determine whether beneficiaries took these
drugs at the same time, we used the dispensing date and number of days
supplied to determine the approximate dates the beneficiary took the drugs.
For example, if a 30-day supply of drug was dispensed on January 1, 2012, we
assumed the beneficiary took the drug from January 1, 2012, to January 30,
2012. If the PDE records indicated that the beneficiary took the same
combination of contraindicated drugs for more than 60 days of the year, we
considered it to be questionable.
Analysis of Beneficiaries With Questionable Utilization Patterns
We analyzed the characteristics of the beneficiaries who had one or more
questionable utilization patterns. We determined the total amount that Part D
paid for HIV drugs for these beneficiaries. We determined the proportion of
these beneficiaries that were located in each Core Base Statistical Area


46
   Most PDE records included an NPI for the prescriber. In cases in which the PDE record
included a different identifier, we used a crosswalk developed by OIG staff to identify the
NPI. If we could not identify the NPI, we used the prescriber identifier on the PDE for this
analysis.
47
   We obtained the addresses and phone numbers from the National Plan and Provider
Enumeration System. 

48
   For a full list of HIV drugs’ brand names, see Appendix A. (Many HIV drugs are currently

available only in brand-name form.) 



Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   11
(CBSA). A CBSA is a region around an urban center that has at least
10,000 people.49 We also determined the number of times that these
beneficiaries changed Part D plans during the year. We then determined the
extent to which these beneficiaries received HIV drugs from any of the
2,637 retail pharmacies or 736 general-care physicians with questionable
Part D patterns that we identified in two earlier reports.50
Limitations
We designed this study to identify utilization patterns that warrant further
scrutiny. None of the measures we analyzed independently confirm that a
particular beneficiary is engaging in fraud, waste, or abuse.
We did not independently verify the accuracy of the PDE records or the
Medicare Part A and B claims data. In addition, our review was limited to
medical services paid for by Medicare. In some cases, beneficiaries may have
received services that were not included in this review, such as services from
free clinics or services for which the beneficiary paid out of pocket.
Standards
This study was conducted in accordance with the Quality Standards for
Inspection and Evaluation issued by the Council of the Inspectors General on
Integrity and Efficiency.




49
   CBSAs include the entire metropolitan area, not just the urban center. See U.S. Census
Bureau, Metropolitan and Micropolitan Statistical Areas. Accessed at
http://www.census.gov/population/www/metroareas/aboutmetro.html on November 21, 2013.
50
   OIG, Retail Pharmacies With Questionable Part D Billing, OEI-02-09-00600, May 2012. 

OIG, Prescribers With Questionable Patterns in Medicare Part D, OEI-02-09-00603, 

June 2013. 



Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   12
FINDINGS
Medicare Part D Paid $2.8 Billion for HIV Drugs in 2012
In 2012, 135,554 beneficiaries received HIV drugs that were paid for by
Medicare Part D. On average, Medicare paid $20,989 per beneficiary for
these drugs, totaling $2.8 billion for the year.51 Typically, each beneficiary had
one or two prescribers and used one pharmacy for their HIV drugs. On
average, beneficiaries received 23 1-month supplies of HIV drugs.
Beneficiaries typically received more than one type of HIV drug
A full treatment regimen usually includes multiple drugs because different
classes of HIV drugs fight the disease differently. The most common
combination of drugs was Norvir, Reyataz, and Truvada. Norvir and Reyataz
work by interfering with the enzymes that HIV uses to produce viral particles.
Truvada interferes with the building of the HIV DNA.
Some beneficiaries took certain drugs known as multiclass combination drugs
instead of taking separate HIV drugs. These HIV drugs contain active
ingredients from multiple classes and are considered a full treatment regimen.
Atripla was the most commonly used multiclass combination drug, followed
by Complera and then Stribild. For more information about the most common
drugs and most common combinations of drugs, see Appendix B.
Beneficiaries who received HIV drugs were more likely to be
younger and male
Beneficiaries who received HIV drugs were more likely to be younger and
male than the Medicare Part D population as a whole.52 Eighty-two percent of
beneficiaries who received HIV drugs were under the age of 65. In contrast,
15 percent of all Part D beneficiaries were under 65. This may be because
many of the beneficiaries who received HIV drugs qualified for Medicare
because of disability, rather than age. Beneficiaries who received HIV drugs
were predominantly male—75 percent—compared to 40 percent of all Part D
beneficiaries. In addition, beneficiaries who received HIV drugs were much




51
   This includes the amount paid by sponsors, by the Government, and by or on behalf of
beneficiaries.
52
   The estimates for age and sex for the entire Part D population are taken from CMS, Chronic
Conditions Data Warehouse: Medicare Part D Charts, September 2013. Accessed at
https://www.ccwdata.org/web/guest/medicare-charts/medicare-part-d-charts#f1_age_2011 on
November 7, 2013.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   13
more likely to receive the low-income subsidy; 82 percent received a subsidy
compared to 29 percent of all Part D beneficiaries.53

Almost 1,600 Part D Beneficiaries Had Questionable
Utilization Patterns for HIV Drugs
In 2012, a total of 1,578 Medicare Part D beneficiaries had questionable
utilization patterns for HIV drugs. Eighty-three percent of these beneficiaries
received the low-income subsidy, meaning that they paid little or no
cost-sharing to receive drugs under Part D.
These 1,578 beneficiaries had no indication of HIV in their Medicare claims
histories, received an excessive dose or supply of HIV drugs, received HIV
drugs from a high number of pharmacies or prescribers, and/or received
contraindicated HIV drugs. See Table 1 for the number of beneficiaries with
each questionable utilization pattern.

Table 1: Number of Beneficiaries With Questionable Utilization Patterns for
HIV Drugs, 2012

                                                                                          Number of Beneficiaries

 No Indication of HIV                                                                                                888

 Excessive Dose                                                                                                      226

 Excessive Supply                                                                                                    206

 High Number of Pharmacies                                                                                           213

 High Number of Prescribers                                                                                          179

 Contraindicated HIV Drugs                                                                                           10

     Total                                                                                                      1,578*


*Sum does not equal 1,578 because a number of beneficiaries had more than 1 questionable utilization pattern.
Source: OIG analysis of Part D data, 2013.



In total, Medicare paid $32 million for HIV drugs for beneficiaries with
questionable utilization patterns. While some of this utilization may be
legitimate, all of these patterns warrant further scrutiny. These patterns


53
   Estimates of the percentage of all beneficiaries receiving the low-income subsidies in 2012
are calculated from data in The Boards of Trustees, Federal Hospital Insurance and Federal
Supplementary Medical Insurance Trust Funds, 2013 Annual Report of the Boards of
Trustees of the Federal Hospital Insurance and Federal Supplementary Medical Insurance
Trust Funds, p. 151. Accessed at http://downloads.cms.gov/files/TR2013.pdf on
November 26, 2013.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)                     14
indicate that a beneficiary may be receiving inappropriate or unnecessary
drugs. The HIV drugs for beneficiaries with questionable patterns were
ordered by 2,698 prescribers and billed by 2,221 pharmacies. Of these,
183 pharmacies and 25 prescribers were previously identified by OIG as
having questionable Part D billing.54
Beneficiaries with questionable patterns were more likely to live in or near
Miami or New York. Twenty-four percent of the beneficiaries with
questionable patterns lived in or near Miami, while just 2 percent of all
beneficiaries who received HIV drugs lived there. Fourteen percent of
beneficiaries with questionable patterns lived in the New York area, while
10 percent of all beneficiaries who received HIV drugs lived there.
Five Part D sponsors accounted for more than three-quarters of the
beneficiaries with questionable patterns. These sponsors were also the most
common among all beneficiaries who received HIV drugs. Two of these
sponsors, however, had a disproportionate number of beneficiaries with
questionable patterns enrolled in their plans. These sponsors had 54 percent
of the beneficiaries with questionable patterns enrolled in their plans but had
43 percent of all beneficiaries who received HIV drugs enrolled.
Almost 900 beneficiaries had no indication of HIV in their
Medicare histories
As Table 1 shows, 888 beneficiaries received HIV drugs paid for by Medicare
Part D but did not have Medicare histories that indicated they had HIV.
According to their Medicare claims from 2011 and 2012, these beneficiaries
had none of the following three indicators of HIV:
          	 a diagnosis of HIV,
          	 any of the laboratory tests that monitor the use of HIV drugs, and
          	 a service from any of the providers who prescribed them HIV
             drugs.
In total, Medicare paid $6.5 million for HIV drugs for beneficiaries who had
no indications of HIV in their Medicare histories. Eighty-three percent of
these beneficiaries received the low-income subsidy.
When Medicare pays for HIV drugs and there is no indication in the Medicare
history that the beneficiary has HIV, it raises concerns about fraud and abuse.
The beneficiary may have received the drugs and diverted them for sale on the
black market. Another possibility is that the beneficiary never received the

54
  For more information, see OIG, Retail Pharmacies With Questionable Part D Billing,
OEI-02-09-00600, May 2012, and OIG, Prescribers With Questionable Patterns in Medicare
Part D, OEI-02-09-00603, June 2013.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   15
drugs. For example, the pharmacy could have submitted claims for drugs that
were never dispensed, or the beneficiary’s identification number could have
been stolen. These drugs were dispensed by 556 pharmacies.
Two of these pharmacies stand out. These two pharmacies—both located in
Miami—billed for HIV drugs for more than one-third (321 of 888) of the
beneficiaries who had no indication of HIV. These 321 beneficiaries had
characteristics different from those of the beneficiaries who typically received
HIV drugs. Most of the beneficiaries associated with the two pharmacies
were women and their average age was 74, which is 21 years older than the
average for beneficiaries who received HIV drugs in 2012. In addition, they
typically received just over a 1-month supply of HIV drugs. Medicare paid
these two pharmacies a total of $359,456 for HIV drugs for beneficiaries who
had no indication of HIV.
The remaining two-thirds of the beneficiaries with no indication of HIV
(567 of 888) also received drug supplies for fewer months than average. They
typically received 12 1-month supplies of HIV drugs, whereas the average for
all beneficiaries receiving HIV drugs was 23 1-month supplies.55 The
difference in these patterns raises further concern that pharmacies may be
billing for drugs that beneficiaries are not receiving or do not need.
Interestingly, 1 pharmacy in Pennsylvania billed for 19 of these beneficiaries.


            Example of a Beneficiary With No Indication of HIV
   In 2012, Medicare paid $33,536 for HIV drugs for a 77-year old Detroit
   woman who had no indication of HIV in her Medicare claims history. She
   had prescriptions for 10 different types of HIV drugs prescribed by
   6 different doctors. There is no evidence that she visited any of these
   doctors.



About 230 beneficiaries received an excessive dose of an HIV
drug; about 210 received an excessive supply
A total of 226 Part D beneficiaries received an excessive dose of at least
1 HIV drug in 2012. Each of these beneficiaries received an average daily
dose that was more than twice the recommended dose for an active ingredient.
Thirteen of these beneficiaries received an average daily dose that was more
than five times the recommended dose. For example, 1 beneficiary received


55
   As noted earlier, a full treatment regimen usually includes multiple drugs because different
classes of HIV drugs fight the disease differently.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   16
30 times the recommended dose of lopinavir. Four beneficiaries received five
or more times the recommended dose of zidovudine.
More than half of the 226 beneficiaries had excessive doses because they
received multiple drugs containing the same ingredient. When added
together, the dose for the ingredient was excessive. In one example, a
New York beneficiary received three different HIV drugs containing tenofovir
almost every month, resulting in five times the recommended dose of
tenofovir.
Although a higher dose may sometimes be appropriate, excessive doses over
long periods of time raise questions about whether these drugs are medically
necessary. Such high dosages may mean that the drugs are being diverted or
that claims were submitted for drugs that were never dispensed. It may also
mean that the beneficiary’s drugs are not being properly monitored and, as a
result, the beneficiary is taking potentially dangerous levels of drugs.



               Example of a Beneficiary With Excessive Doses
   One beneficiary received $17,509 of HIV drugs in a single day and no
   other HIV drugs the rest of the year. On that single day, she received more
   than twice the recommended dose for five different HIV drug ingredients.
   Further, two of the drugs, Atripla and Complera, are complete drug
   regimens that do not need to be taken with other HIV drugs.



A total of 206 Part D beneficiaries received an excessive supply of HIV drugs
in 2012. Each of these beneficiaries received more than a 16-month supply of
at least one HIV drug. An excessive supply may indicate that the beneficiary
is receiving drugs that are not medically necessary or that the beneficiary or
pharmacy is diverting these drugs and selling them for profit. It also may
indicate that the beneficiary’s drugs are not being properly monitored for
safety.
Nearly one-third of these beneficiaries received excessive supplies of multiple
HIV drugs. This includes three beneficiaries who each received excessive
supplies of four different drugs. In one case, the beneficiary received supplies
that were more than a 480-day supply each of Prezista, Norvir, Intelence, and
Selzentry. Another beneficiary received a 600-day supply of Atripla, a
600-day supply of Isentress, and a 510-day supply of Lexiva.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   17
           Example of a Beneficiary With an Excessive Supply
     One beneficiary from New York received a 720-day supply of Norvir
     100 mg. Almost every month in 2012, this beneficiary received this drug
     from two different pharmacies and two different prescribers. Recent
     research indicates that when ritonavir—the active ingredient in Norvir—is
     mixed with some illicit drugs, including ecstasy, it heightens the
     psychoactive effects of the drugs.


Over 210 beneficiaries obtained HIV drugs from a high number of
pharmacies; nearly 180 beneficiaries had a high number of
prescribers
Two hundred thirteen Part D beneficiaries obtained HIV drugs from a high
number of pharmacies in 2012. Each of these beneficiaries went to six or
more pharmacies for their HIV drugs during the year. Twenty beneficiaries
each went to more than 10 pharmacies. When a beneficiary obtains HIV
drugs from many pharmacies, it could mean the beneficiary is seeking drugs
to divert for profit or the beneficiary’s identification number was stolen.
Another concern is that the beneficiary is getting excessive doses or supplies.
About one-third of the beneficiaries who went to a high number of pharmacies
were from the Miami or New York areas.
A total of 179 beneficiaries had a high number of prescribers for their HIV
prescriptions, raising concerns about “doctor-shopping.”56 Each of these
beneficiaries had at least six prescribers for HIV drugs. Twenty-nine
beneficiaries had 10 or more prescribers. When a beneficiary goes to a high
number of prescribers to obtain HIV drugs, it could indicate that the
beneficiary is acquiring drugs with the intention of diverting them. It might
also signal that the beneficiary’s care is not being monitored or coordinated
properly. Forty-five percent of the beneficiaries who had a high number of
prescribers were from the Miami or New York areas.
Beneficiaries with a high number of pharmacies or prescribers were far more
likely to change their Part D prescription drug plans two or more times during
the year, meaning they were enrolled in three or more plans. These
beneficiaries were at least 10 times more likely to change their plans multiple


56
  “Doctor-shopping” occurs when a beneficiary consults a number of doctors for the purpose
of inappropriately obtaining prescriptions.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   18
times compared to all beneficiaries taking HIV drugs. Specifically, 12 percent
of the beneficiaries with a high number of pharmacies switched plans more
than once in 2012, and 16 percent with a high number of prescribers switched
more than once. In contrast, 1 percent of all beneficiaries taking HIV drugs
changed their plans more than once. Notably, eight beneficiaries were
enrolled in six or more plans during 2012.
The patterns of 61 beneficiaries are of particular concern. Each of these
beneficiaries obtained HIV drugs from a high number of pharmacies and a
high number of prescribers.

     Example of a Beneficiary With a High Number of Pharmacies
                          and Prescribers
      A 48-year-old from Miami went to 28 pharmacies and had 16 prescribers
      for HIV drugs, which included 15 different types of drugs. The
      beneficiary received excessive doses and excessive supplies during the
      year. In total, Medicare paid $198,272 for the HIV drugs for this
      beneficiary.


Ten beneficiaries received contraindicated HIV drugs
Ten beneficiaries each received a potentially dangerous combination of HIV
drugs for at least 60 days in 2012. According to the FDA-approved labels for
these drugs, these combinations are contraindicated, meaning the risks of
using the drug combination clearly outweigh any potential therapeutic
benefit.57 One of the beneficiaries received contraindicated HIV drugs for
almost the entire year. These drugs were often dispensed on the same date by
the same pharmacy, despite warning labels. Even though the number of
beneficiaries who received such combinations is small, these combinations
should not happen at all, as taking such combinations could put beneficiaries
at great risk.
Over 100 beneficiaries had questionable utilization patterns for
more than 1 measure
One hundred two beneficiaries had questionable utilization patterns for
multiple measures. Ninety-three beneficiaries had questionable patterns for
two or three measures, while nine beneficiaries had questionable patterns for



57
  See FDA, Guidance of Industry: Warning and Precautions, Contraindications, and Black
Box Warning Sections of Labeling for Human Prescriptions Drugs and Biological Products –
Content and Format, October 2011. Accessed at http://www.fda.gov/downloads/Drugs/
GuidanceComplianceRegulatoryInformation/Guidances/UCM075096.pdf on May 14, 2013.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   19
four or more measures. See the text box below for examples of beneficiaries
with several questionable patterns.




     Examples of Beneficiaries With Several Questionable Patterns

     Medicare paid $349,854 in 2012 for one Florida beneficiary’s HIV
      drugs. This beneficiary received 20 different HIV drugs from
      32 prescribers and 20 different pharmacies. In total, he received
      284 HIV drugs. This resulted in excessive doses of seven HIV drugs
      and an excessive supply of three drugs. He was enrolled in five
      different Part D plans during the year.

     Medicare paid $146,160 for HIV drugs for a 37-year-old Miami
      beneficiary. In 1 month alone, he received 16 HIV drugs. Several
      times during the year, he received these drugs from two different
      pharmacies on the same day. He had prescriptions from nine
      physicians and was enrolled in two Part D plans during the year.

     Medicare paid $154,549 for HIV drugs for a 44-year-old beneficiary in
      Miami who had 12 prescribers. The beneficiary used 19 pharmacies
      and received more than 3 times the recommended doses of
      emtricitabine and tenofovir.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   20
CONCLUSION AND RECOMMENDATIONS
Various types of Part D drugs can be targets for fraud, waste, and abuse,
particularly if they are expensive or have psychoactive effects. HIV drugs are
an example of such Part D drugs. They are costly and can be profitable to
beneficiaries and others who choose to sell them on the black market.
We found that almost 1,600 Part D beneficiaries who received HIV drugs had
questionable utilization patterns in 2012. While some of this utilization may
be legitimate, all of these patterns warrant further scrutiny. These patterns
indicate that beneficiaries may be receiving inappropriate or unnecessary
drugs. Other possibilities include that the pharmacy submitted claims for
drugs never dispensed or that the beneficiary’s identification was stolen.
Almost 900 of the 1,600 beneficiaries had no indication of HIV in their
Medicare histories. Others received an excessive dose or excessive supply of
HIV drugs, obtained HIV drugs from a high number of pharmacies, had a high
number of prescribers, or received contraindicated HIV drugs.
CMS has placed few restrictions on specific beneficiaries in Part D. These
restrictions have focused on opioids. This report addresses another group of
drugs that is susceptible to fraud, waste, and abuse. It shows that CMS needs
to increase its program integrity efforts focused on beneficiaries beyond
opioids and limit certain beneficiaries from receiving other potentially
inappropriate or unnecessary drugs. CMS needs to do this while also
maintaining beneficiaries’ access to needed drugs.
We recommend that CMS:
Expand Sponsors’ Drug Utilization Review Programs
The purpose of drug utilization review programs is to address inappropriate
utilization to protect beneficiaries and to reduce fraud, waste, and abuse.
CMS required sponsors to improve these programs beginning in 2013.
Specifically, it required that sponsors make improvements to the concurrent
claims review and formulary design for all drugs. However, improvements to
retrospective reviews and case management were required only for opioids.
CMS should require sponsors to improve retrospective reviews and case
management for other drugs susceptible to fraud, waste, and abuse, including
HIV drugs. As they do with opioids, sponsors should use data analysis to
identify beneficiaries who may be overutilizing these drugs and to identify
possible fraud, waste, and abuse. CMS should require sponsors to contact the
prescribing physicians to determine whether utilization is appropriate.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   21
Expand the Overutilization Monitoring System To Include
Additional Drugs Susceptible to Fraud, Waste, and Abuse
CMS should ensure that sponsors have made the necessary changes to
improve their drug utilization review programs. As part of its efforts, CMS
should expand the Overutilization Monitoring System—which currently
focuses on opioids and acetaminophen—to include other drugs susceptible to
fraud, waste, and abuse, such as HIV drugs. Specifically, CMS should—on a
quarterly basis—identify beneficiaries who are receiving excessive amounts
of certain drugs, including HIV drugs; provide a list of these beneficiaries to
sponsors; and require sponsors to review each beneficiary and report on the
status of these reviews.
Expand Sponsors’ Use of Beneficiary-Specific Controls
Under certain conditions, CMS allows sponsors to implement edits at the
point of sale for beneficiaries identified as overutilizing opioids. The goal of
these edits is to prevent these beneficiaries from receiving inappropriate and
unsafe drugs and to prevent fraud, waste and abuse. CMS should encourage
sponsors to develop similar controls for other drugs. As a part of this effort,
CMS should provide additional guidance to sponsors about the circumstances
under which they can use point-of-sale edits and similar controls for
beneficiaries identified as overutilizing other drugs susceptible to fraud,
waste, and abuse, including HIV drugs.
CMS should balance the need for these controls with maintaining access to
needed drugs. CMS should closely monitor the sponsors to ensure that they
use these controls only after appropriate case management and
communication with the prescriber and beneficiary.
Restrict Certain Beneficiaries to a Limited Number of Pharmacies
or Prescribers
We found that a number of beneficiaries received similar drugs from
extremely high numbers of pharmacies or prescribers. CMS should seek
legislative authority, if necessary, to restrict certain beneficiaries to a limited
number of pharmacies or to a limited number of prescribers, a practice
commonly referred to as “lock-in.” This practice is currently used by some
State Medicaid programs. CMS would need to balance these restrictions with
ensuring access to quality care for these beneficiaries. Restricting certain
beneficiaries to a limited number of pharmacies or prescribers could reduce
program costs and inappropriate utilization. It could also improve
coordination of services and quality of care for these beneficiaries.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   22
Limit the Ability of Certain Beneficiaries To Switch Plans
We found that a number of beneficiaries with questionable utilization patterns
switched their Part D plans multiple times during the year. CMS should seek
legislative authority to restrict the ability of certain beneficiaries to switch
plans multiple times during the year. Currently, beneficiaries who receive the
low-income subsidy are allowed to switch plans every month. While CMS
needs to continue to allow beneficiaries to switch plans under certain
circumstances, it needs to implement some restrictions. Sponsors cannot
effectively monitor the drugs that beneficiaries are receiving when
beneficiaries frequently switch plans. Limiting certain beneficiaries’ ability to
switch plans could save taxpayer dollars and improve the quality of care for
these beneficiaries.
Increase Monitoring of Beneficiaries’ Utilization Patterns
CMS should instruct the MEDIC to routinely monitor beneficiaries’
utilization patterns. CMS should focus on drugs susceptible to fraud, waste,
and abuse, including HIV drugs. To do this, CMS should use the measures in
this report or other methods that it deems appropriate. It should use claims
data from Medicare Parts A and B to identify beneficiaries who do not have a
history, such as a diagnosis, that supports the use of the drugs. CMS should
then identify the pharmacies and prescribers that are associated with these
beneficiaries.
Follow Up on Questionable Utilization Patterns
In a separate memorandum, we will refer to CMS the beneficiaries with
questionable utilization patterns. CMS or the MEDIC should further assess
these utilization patterns by using other methods, such as reviewing medical
records and supporting documentation. CMS should then determine the most
appropriate actions.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   23
AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
In its comments on our draft report, CMS concurred with five of our seven
recommendations. CMS concurred with our first recommendation (to expand
sponsors’ drug utilization review programs), stating that it has indicated that
Part D sponsors may adapt its guidance with respect to opioids and nonopioid
medications. It also said that it will reiterate and clarify this guidance with
respect to the potential overutilization, misuse, and safety issues identified in
this report related to HIV drugs.
CMS did not concur with our second recommendation (to expand the
Overutilization Monitoring System). It stated that the system is not
functionally designed to be a comprehensive safety and/or fraud-identification
tool. Instead, it is primarily a tool focused on medication safety to ensure that
Part D sponsors adequately address the overutilization of opioids and
acetaminophen. While we understand that the Overutilization Monitoring
System’s primary focus is opioids and acetaminophen, we see benefits in
expanding it to include other drugs to ensure that sponsors are improving their
drug utilization review programs.
CMS concurred with our third and fourth recommendations (that it expand
sponsors’ use of beneficiary-specific controls and that it restrict certain
beneficiaries to a limited number of pharmacies or prescribers). It noted that
current guidance states that sponsors may expand their use of
beneficiary-specific controls to drugs other than opioids and acetaminophen,
as long as they use the same level of diligence and internal documentation that
the agency expects with respect to opioids and acetaminophen. With respect
to restricting certain beneficiaries to a limited number of pharmacies or
prescribers, CMS stated it would be receptive to legislative authority for
“lock-in” in Part D.
CMS said that it did not concur with our fifth recommendation (to limit the
ability of certain beneficiaries to switch plans) at this time. The agency said
that it believes that new legislative authority to limit prescribers or pharmacies
and the implementation of OIG’s other recommendations are more likely to
effectively address OIG’s intent to limit an individual’s ability to commit
fraud or obtain more than necessary doses of Part D drugs. Further, CMS said
that it is concerned about the potential unintended consequences from creating
limitations for certain beneficiaries receiving the low-income subsidy. While
we share CMS’s concern about the vulnerability of this population, we believe
this recommendation can be implemented with minimal impact on these
beneficiaries. It could be used in only the most extreme cases, where other
steps have failed to prevent potential abuse or overutilization.


Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   24
CMS concurred with the sixth and seventh recommendations (that it increase
monitoring of beneficiaries’ utilization patterns and that it follow up on
questionable utilization patterns). It stated that it will conduct future analysis
that will use Medicare Part A and B claims data to identify beneficiaries, as
well as the pharmacies and prescribers linked to these beneficiaries, to
monitor fraud, waste, and abuse in Medicare Parts C and D. CMS further
stated that it will review the OIG data and take appropriate actions. The full
text of CMS’s comments is provided in Appendix C.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   25
APPENDIX A

HIV Drugs
  Brand Name                   Generic Name

  Multiclass Combination Products


  Atripla                      efavirenz, emtricitabine and tenofovir disoproxil fumarate


  Complera                     emtricitabine, rilpivirine, and tenofovir disoproxil fumarate

                               elvitegravir, cobicistat, emtricitabine, tenofovir disoproxil
  Stribild
                               fumarate

  Nucleoside Reverse Transcriptase Inhibitors (NRTIs)

  Combivir                     lamivudine and zidovudine

  Emtriva                      emtricitabine, FTC

  Epivir                       lamivudine, 3TC

  Epzicom                      abacavir and lamivudine

  Retrovir                     zidovudine, azidothymidine, AZT, ZDV

  Trizivir                     abacavir, zidovudine, and lamivudine

  Truvada                      tenofovir disoproxil fumarate and emtricitabine

  Videx EC                     enteric coated didanosine, ddI EC

  Videx                        didanosine, dideoxyinosine, ddI

  Viread                       tenofovir disoproxil fumarate, TDF

  Zerit                        stavudine, d4T

  Ziagen                       abacavir sulfate, ABC

  Nonnucleoside Reverse Transcriptase Inhibitors (NNRTIs)

  Edurant                      rilpivirine

  Intelence                    etravirine

  Rescriptor                   delavirdine, DLV

  Sustiva                      efavirenz, EFV

  Viramune (Immediate
                               nevirapine, NVP
  Release)

  Viramune XR (Extended
                               nevirapine, NVP
  Release)
                                                                              (continued on next page)




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)              26
HIV Drugs (continued)
 Brand Name                        Generic Name

 Protease Inhibitors (PIs)

 Agenerase                         amprenavir, APV (no longer marketed)

 Aptivus                           tipranavir, TPV

 Crixivan                          indinavir, IDV,

 Fortovase                         saquinavir (no longer marketed)

 Invirase                          saquinavir mesylate, SQV

 Kaletra                           lopinavir and ritonavir, LPV/RTV

 Lexiva                            fosamprenavir calcium, FOS-APV

 Norvir                            ritonavir, RTV

 Prezista                          darunavir

 Reyataz                           atazanavir sulfate, ATV

 Viracept                          nelfinavir mesylate, NFV

 Fusion Inhibitors

 Fuzeon                            enfuvirtide, T-20

 Entry Inhibitors - CCR5 Co-Receptor Antagonist

 Selzentry                         maraviroc

 HIV Integrase Strand Transfer Inhibitors

 Isentress                         raltegravir
Source: FDA, Antiretroviral Drugs Used in the Treatment of HIV Infection, August 2013.

Note: For more information about these drugs, see FDA’s full table at
http://www.fda.gov/forconsumers/byaudience/forpatientadvocates/hivandaidsactivities/ucm118915.htm.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)          27
APPENDIX B
Table B-1: Most Common Combinations of HIV Drugs
                                                                                      Total Number of
                                                                   Total Number of
 Combination of Drugs                                                                     Days Taken
                                                                      Beneficiaries
                                                                                             Together

 Norvir, Reyataz, and Truvada                                               14,311          3,175,807

 Norvir, Prezista, and Truvada                                              10,121          1,848,085

 Isentress and Truvada                                                       8,656          1,539,604

 Norvir and Truvada                                                          7,980           140,186

 Norvir and Prezista                                                         6,853           159,757

 Norvir and Reyataz                                                          6,388           144,163

 Kaletra and Truvada                                                         5,252          1,099,948

 Reyataz and Truvada                                                         4,869           231,498

 Isentress, Norvir, and Prezista                                             4,282           312,290

 Isentress, Norvir, Prezista, and Truvada                                    3,471           651,307
Source: OIG analysis of Part D data, 2013. 

Note: For a list of the generic names for these drugs, see Appendix A. 

.





Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)         28
Table B-2: Most Common HIV Drugs
                                                   Total Number
                                                                      Total Number of
 HIV Drug                                                     of                             Total Dollars
                                                                        Prescriptions
                                                   Beneficiaries
 Norvir                                                    56,018               471,146     $170,984,046

 Truvada                                                   52,574               441,399     $545,137,647

 Isentress                                                 33,748               282,629     $306,824,485

 Reyataz                                                   28,564               238,718     $255,817,941

 Prezista                                                  28,012               227,405     $248,064,989

 Atripla                                                   27,514               237,458     $448,889,051

 Epzicom                                                   18,408               156,654     $164,068,263

 Viread                                                    14,946               116,203       $88,529,258

 Kaletra                                                   14,886               119,312       $93,417,187

 Intelence                                                 11,178                 90,926      $79,094,787

 Sustiva                                                   10,702                 92,229      $60,042,837

 Epivir / lamivudine*                                      10,381                76,477       $22,419,341

 Combivir / lamivudine-zidovudine*                           9,665               75,764       $61,281,517

 Ziagen / abacavir*                                          8,155                61,994      $34,389,214

 Viramune / Viramune XR / nevirapine*                        7,648                70,367      $37,013,755

 Lexiva                                                      5,457                45,615      $47,083,756

 Complera                                                    3,908                21,800      $42,214,282

 Retrovir / zidovudine*                                      3,358               23,284        $1,414,313

 Selzentry                                                   3,210                27,365      $33,262,235

 Emtriva                                                     3,119                22,821       $9,334,652

 Trizivir                                                    3,100               24,634       $38,571,285

 Videx / Videx EC / didanosine*                              2,487                19,518       $4,559,596

 Viracept                                                    2,112                18,267      $15,304,005

 Zerit / stavudine*                                          1,698               12,812        $1,810,603

 Stribild                                                    1,200                 2,456       $6,106,062

 Invirase                                                    1,130                 9,936       $9,445,175

 Edurant                                                       742                 4,437       $3,150,003

 Fuzeon                                                        504                 3,816      $10,685,586

 Crixivan                                                      463                 3,487       $1,607,226

 Aptivus                                                       431                 3,658       $4,328,383

 Rescriptor                                                    102                   846         $288,390
Source: OIG analysis of Part D data, 2013. 

*When determining the most common drugs, we considered the drugs listed with slashes (/) between them to be

the same.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)                    29
           APPENDIX C
           Agency Comments




l4­
/   .... ...
      ~


                DEPA!UMENT OF HEALTH & HUMAN SERVICES                                   Centers lOt Medicare & Medicaid Se!'lices


                                                                                        Administrator
                                                                                        Washington. DC 20201




               DATE:           HAY 30 2014
               TO: 	         Daniel R. Levinson 

                             Inspector General 


               FROM: 	
                                                 /S/
                             Marl'lyn "'N!venner 

                             Administtator 


               SUBJECT: 	 Office of Inspector General {OIG) Draft Report: " Part D Beneficiaries with
                          Questionable Utilization Patterns for HIV Drugs" (OEI-02-11-00170)


               The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
               comment on the above-refc.renced OIG draft report. The purpose of this report was to identify
               patternsofquestionable drug utilization in the Medicare Part D program that may warrant further
               scrutiny.

               The CMS is committed to preventing fraud, waste, and abuse in the Medicare Part D program.
               To help protect the Medicare Part p program, CMS requires plan sponsors to have compliance
               programs in place to help detect, prevent, and correct fraud, waste, and abuse. CMS also
               contracts with a Medicare Drug Intcgri.ty Contractor (MEDIC) that is tasked with identifying and
               investigating potential fraud and abuse, referring such cases to law enforcement. and fulfilling
               requests for information from law enforcement We appreciate OIG' s efforts in working with
               CMS to prevent fraud, waste, and abuse in the Medicare Part D program. Our response to each
               of the O!G recommendations follows.

               OJG Recommendation

               The OJG recommends CMS expand sponsors' drugs utilization review programs. CMS should
               require sponsors to improve retrospective reviews and case management for other drugs
               susceptible to frau~ waste. and abuse, including HlV drugs . Similar to opioids, sponsors should
               use data analysis to identify beneficiaries who may be over-utilizing these drugs and to identify
               possible fraud , waste, and abuse. CMS should require that sponsors contact the prescribing
               physicians to determine whether utilization is appropriate.

               CMS Response

               The CMS concurs with this re.commendation. In guidance since 2012, CMS has repeatedly
               indicated that Part D sponsors may adapt CMS ' guidance with respect to opioids to non-opioid
               medications. (See September 6, 2012 memorandum, "Supplemental Guidance Related to




           Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)                    30
Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   31
Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   32
Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   33
ACKNOWLEDGMENTS
This report was prepared under the direction of Jodi Nudelman, Regional
Inspector General for Evaluation and Inspections in the New York regional
office, and Nancy Harrison and Meridith Seife, Deputy Regional Inspectors
General.
Miriam Anderson served as the team leader for this study. Other Office of
Evaluation and Inspections staff from the New York regional office who
conducted the study include Jenell Clarke-Whyte and Jason Kwong. Central
office staff who provided support include Eddie Baker, Jr.; Mandy Brooks;
David Graf; Kevin Farber; Meghan Kearns; and Christine Moritz. We would
also like to acknowledge the contributions of other Office of Inspector
General staff, including Scott Hutchison and Julie Taitsman.




Part D Beneficiaries With Questionable Utilization Patterns for HIV Drugs (OEI-02-11-00170)   34
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
